         Office of the Inspector General
Corporation for National and Community Service

                 Semiannual Report to the Congress
                                   for the period
                April 1, 2000 - September 30, 2000
                                  Fiscal Year 2000
                               Semiannual Report No. 2




As required by the Inspector General Act of 1978, as amended, this report describes
our activities and accomplishments for the second half of the fiscal year. Section 5 of
the Act requires that the Corporation’s Chief Executive Officer submit this report to the
Congress and the Corporation’s Board of Directors within 30 days of its receipt.
                                       TABLE OF CONTENTS


EXECUTIVE SUMMARY ................................................................................................................i

IG ACT REPORTING REQUIREMENTS ......................................................................................iii

AUDIT SECTION
    Financial Management .................................................................................................................1
    Procurement Management ...........................................................................................................1
    Grant Management and Oversight ................................................................................................4
    Audit Resolution ..........................................................................................................................6


INVESTIGATIONS SECTION ...................................................................................................... 10

REVIEW OF LEGISLATION AND REGULATIONS ................................................................... 14

TABLES

    Table I                 Inspector General Reports with Questioned Costs ............................................ 15
    Table II                Inspector General Reports with Recommendations
                            That Funds Be Put To Better Use ..................................................................... 16
    Table III               Summary of Audits with Overdue Management Decisions .............................. 17
    Table IV                Reports Described in Prior Semiannual Reports
                            Without Final Action ....................................................................................... 19
    Table V                 Status of Recommendations on Corporation Management Issues ..................... 21


OIG FY 2000 PERFORMANCE INFORMATION

   Mission Statement ...................................................................................................................... 26
   Strategic Goals ........................................................................................................................... 26
   Audit Performance Information .................................................................................................. 28
   Investigations Performance Information ...................................................................................... 29
   Summary of OIG Obligations and Expenditures .......................................................................... 31
                          EXECUTIVE SUMMARY
AUDIT SECTION                                          INVESTIGATIONS SECTION

During this semiannual reporting period, OIG           During this semiannual reporting period we
issued 24 audit reports, for a total of 38 audit       received and processed 34 Hotline calls,
reports issued during the fiscal year.                 opened 30 investigative actions, and
Summaries of all audit reports issued during           completed 22 investigative actions.      We
this reporting period are on pages 1 through 9.        referred six matters to the Department of
                                                       Justice for prosecution or civil enforcement
Financial Management
                                                       (page 10).
The management letter resulting from OIG’s
audit of the Corporation’s fiscal year 1999            A guilty plea in one investigation this period
financial statements reported 36 matters noted         resulted in a prison sentence and court-ordered
by auditors involving the Corporation’s                restitution for a former employee of an
internal controls that were not considered             AmeriCorps sponsor (page 10). Criminal
material weaknesses or reportable conditions.          prosecution was not pursued in another matter
(page 1)                                               after a former AmeriCorps Member was
                                                       terminated and agreed to make restitution
Procurement Management                                 (page 10).

OIG’s audit of the Corporation’s procurement           The Corporation recovered approximately
operations determined that the Corporation is          $237,000 from a state commission as
still vulnerable to fraud, waste, and abuse, and       reimbursement for unearned education awards
the auditors classify the Corporation’s                already paid and for questioned grant costs
procurement operations as a material                   after we determined several AmeriCorps
weakness (page 2).                                     members falsified their timesheets, with the
                                                       knowledge of the program director, and
OIG audited costs claimed by one Corporation           received credit for ineligible activities (page
contractor, resulting in questioned costs in           10).
excess of $1.1 million. That audit report and
two others are summarized on page 2.                   The Corporation is pending receipt of
                                                       approximately $20,000 from a state
Grant Management and Oversight                         commission as reimbursement for misapplied
                                                       or misappropriated Corporation grant funds
OIG issued 18 state commission pre-audit               after we found that the former executive
survey reports in its continuing initiative to         director of a state commission funded
gather basic information about, and assess risk        AmeriCorps program, presently incarcerated
related    to    the    Corporation’s     state        for an unrelated offense, may have misapplied
commissions. OIG also issued a report                  or misappropriated the funds (page 11).
summarizing pre-audit survey results and
findings from the first 18 state commission            A referral to management involving OIG
pre-audit surveys (page 4).                            concerns regarding non-duplication and non-




                                                   i              FY00 Semiannual Report No. 2
                                                       EXECUTIVE SUMMARY
displacement issues, and the appearance                Florida, for attendees of the         National
created by salaried employees receiving                Community Service Conference.
AmeriCorps education awards under such
circumstances, is pending management’s                 The presentations included discussing our
response (page 11).                                    more prevalent findings and recommendations
                                                       for managers to enable them to detect and
A referral to management involving the                 report fraud in its early stages.
Corporation’s relationship with a Corporation
grantee, errors in travel claims related to            The     Deputy    Inspector     General    for
Corporation employee travel to a convention            Investigations and Operations also provided
co-sponsored by this grantee, and the                  OIG presentations at two of the most recent
Corporation’s failure to require the grantee to        Corporation New Employee Orientation
comply with financial reporting provisions of          sessions.    The presentations included the
the grant resulted in the Corporation adopting         authority and responsibilities of the OIG and
some, but not all of our recommendations               when and how employees should contact the
(page 11).                                             OIG.

A referral to management involving a
Corporation employee’s misuse of his travel            TESTIMONY
charge card and refusal to cooperate during an
OIG investigation, all in apparent violation of        The Inspector General testified before
ethics principles for Federal employees, is            Congress on two occasions during the
pending management’s response (page 12).               reporting period. On April 4, 2000, the IG
                                                       testified before the Subcommittee on
An investigation into apparent overbilling by a        Investigations and Oversight of the U.S.
Corporation contractor resulted in the U.S.            House of Representatives Committee on
Attorney declining to pursue the matter in             Education and the Workforce. The IG testified
favor of a closeout audit (page 12).                   at length about the audit of the Corporation’s
                                                       fiscal year 1999 financial statements. On April
                                                       12, 2000, the IG testified before the
OIG FY 2000 PERFORMANCE AND                            Subcommittee on Veterans Affairs, Housing
FINANCIAL INFORMATION                                  and Urban Development and Independent
                                                       Agencies of the Senate Committee on
As it is our custom, OIG’s Performance                 Appropriations on the audit and other financial
Information is included in this Semiannual             management issues.
Report (pages 26-30). Page 31 provides
information on our use of our budgetary
resources.


OUTREACH EFFORTS

As a part of our ongoing fraud prevention
efforts, the Deputy Inspector General for
Investigations and Operations provided two
Fraud Awareness presentations in Orlando,



                                                  ii              FY00 Semiannual Report No. 2
            IG ACT REPORTING REQUIREMENTS

This table cross-references the reporting requirements prescribed by the Inspector General Act of
1978, as amended, to the specific pages in the report where they are addressed.

   Requirement                                                                             Page

 Section 4 (a)(2)    Review of legislation and regulations                                  14
 Section 5 (a)(1)    Significant problems, abuses, and deficiencies related to the      Throughout
                     administration of Corporation programs and operations
 Section 5 (a)(2)    Recommendations with respect to significant problems, abuses,      Throughout
                     and deficiencies found in the administration of Corporation
                     programs and operations
 Section 5 (a)(3)    Prior significant recommendations on which corrective action           19
                     has not been completed
 Section 5 (a)(4)    Matters referred to prosecutive authorities                            13
 Section 5 (a)(5)    Summary of instances where information was refused                  None this
                                                                                          period
 Section 5 (a)(6)    List of audit reports by subject matter showing dollar value of         8
                     questioned costs and recommendations that funds be put to
                     better use
 Section 5 (a)(7)    Summary of each particularly significant report                    Throughout
 Section 5 (a)(8)    Statistical table showing number of reports and dollar value of        15
                     questioned costs
 Section 5 (a)(9)    Statistical table showing number of reports and dollar value of        16
                     recommendations that funds be put to better use
 Section 5 (a)(10)   Summary of each audit issued before this reporting period for          17
                     which no management decision was made by end of reporting
                     period
 Section 5 (a)(11)   Significant revised management decisions                            None this
                                                                                          period
 Section 5 (a)(12)   Significant management decisions with which the Inspector               6
                     General disagrees




                                              iii                  FY00 Semiannual Report No. 2
                                  AUDIT SECTION

The Office of the Inspector General Audit Section is responsible for reviewing financial, administrative,
and program aspects of Corporation operations. It carries out these responsibilities by conducting the
audit of the Corporation’s annual financial statements, assessing the Corporation’s management
controls, auditing Corporation operations, and auditing individual grants, contracts, and cooperative
agreements funded by the Corporation. All OIG audit reports are referred to Corporation management
for action or information. A list of the reports issued by the Audit Section during this period can be
found on page 8.


                              FINANCIAL MANAGEMENT
Recommended Improvements to the Corporation’s Internal Controls Fiscal Year 1999 --
Management Letter (OIG Audit Report Number 00-38, issued on June 27, 2000)

The Government Corporation Control Act (31 U.S.C. 9101 et seq.) requires the Office of the
Inspector General to annually audit the financial statements of the Corporation. OIG contracted with
KPMG LLP to audit the Corporation’s fiscal year 1999 financial statements. KPMG issued an
unqualified opinion on the Corporation’s Statement of Financial Position at September 30, 1999.
However, KPMG was unable to render an opinion on the Statements of Operations and Changes in
Net Position, and the Statement of Cash Flows for the fiscal year.

OIG’s audit report1 describes the basis for the opinion and material weaknesses, other reportable
internal control conditions, and compliance issues found as a result of the audit. During the
engagement, the auditors also noted other matters involving the Corporation’s internal controls that
were not considered material weaknesses or reportable conditions. These conditions were reported in
the management letter, which includes 36 recommendations for corrective action by the Corporation.
Of the total recommendations, eight relate to grants management; seven each relate to information
technology and human resources; four relate to the content of the annual financial reports; two each to
the National Service Trust, fund balance with Treasury, laws and regulations, and revenue from
reimbursable agreements; and one each to procurement and general expenditures, and property and
equipment.


                          PROCUREMENT MANAGEMENT
During fiscal year 1998 OIG audited the Corporation’s procurement operations (OIG Audit Report
98-24, Audit of the Corporation’s Procurement and Contracting Processes and Procedures). That
audit revealed material weaknesses in the Corporation’s award, monitoring, and oversight of its
contracts and cooperative agreements. During this reporting period we performed a follow-up audit
to assess the Corporation’s corrective actions, as discussed below.



1
 OIG Audit Report 00-01, Audit of the Corporation for National and Community Service's Fiscal
Year 1999 Financial Statements.


                                                 1                  FY00 Semiannual Report No. 2
                                                                                      AUDITS
Also, because of the nature of the reported deficiencies, OIG continued to audit the Corporation’s
individual contracts and cooperative agreements. The audits of individual contracts are intended to
assess whether the costs are allowable, adequately supported, and charged in accordance with the
terms of the contract or training and technical assistance agreements, and applicable laws and
regulations.

Follow-up Audit of the Corporation’s Procurement Operations (OIG Audit Report Number 00-42,
issued on September 25, 2000)

OIG retained Cotton & Company, LLP, to conduct a follow-up audit of the Corporation’s
procurement operations. The audit was intended to assess the effectiveness of corrective actions
implemented in response to OIG audit report 98-24 which concluded that the Corporation’s
procurement operations were vulnerable to fraud, waste and abuse.

For the follow-up audit, Cotton & Company’s testing focused on procurement activities undertaken
after the Corporation’s adoption of its procurement policy and procurement directives late in calendar
year 1999. The auditors concluded that, despite the Corporation’s reported corrective actions in
response to the previous OIG audit,

•       The Corporation’s procurement contracting and procurement operations continue to be a
        material weakness.

•       The Corporation’s procurement process is still vulnerable to fraud, waste and abuse.

•       The rate of errors discovered indicates that the Corporation’s internal controls are not
        working effectively.

Cotton & Company reported that 9 out of 19 deficiencies previously identified in the Corporation’s
procurement operations still existed, and concluded that the Corporation had not taken adequate
corrective action on the prior-report’s recommendations.

In its response to the draft audit report, the Corporation disagreed with the findings and
recommendations. CNS acknowledged that errors were made, but stated that the errors were minimal
and did not rise to the level of significance that they should be reported.

Audit of the Corporation for National and Community Service Contract No. CNCS-94-002 with
Encore Management Corporation (OIG Audit Report Number 00-22, issued on September 21,
2000)

Cotton & Company, LLP, under contract to the Office of the Inspector General, audited $9,777,322 in
claimed costs incurred during the period from July 25, 1994 through December 31, 1998, by Encore
Management Corporation. The audit included tests to determine whether costs reported to the
Corporation were documented and allowable in accordance with the terms and conditions of the
contract.

Cotton & Company questioned $1,102,982 (approximately 11 percent) of costs claimed. Of this
amount, over $650,000 was for temporary labor costs for work performed in labor categories or at


                                                2                 FY00 Semiannual Report No. 2
                                                                                         AUDITS
labor rates not included in the contract or in contract modifications. Just over $500,000 was
questioned because Encore billed indirect costs at provisional rates that exceeded its actual rates.
Auditors also identified three material instances of noncompliance, as Encore:

•   billed costs in excess of contract-specified funding limits for fixed fee, temporary help and total
    funding;

•   failed to submit its proposed final indirect cost rates; and

•   claimed direct labor, indirect costs, and fee that were unallowable and unallocable in accordance
    with contract terms and conditions and the Federal Acquisition Regulation.

Finally, auditors identified three material internal control weaknesses, as Encore:

•   does not have policies and procedures to adequately identify unallowable indirect expenses in
    accordance with the FAR;

•   does not have adequate timekeeping procedures; and

•   did not prepare invoices directly from its accounting system.

Audit of the Corporation for National and Community Service Contract No. CNCS 94-003 and No.
95-002 with Hi-Tech International, Inc. (OIG Audit Report Number 00-23, issued on June 15,
2000)

Cotton & Company, LLP, under contract to the Office of the Inspector General, audited costs claimed
under CNCS Contract No. CNCS 94-003 and No. 95-002 with Hi-Tech International. Cotton &
Company questioned $36,852 of costs claimed under the two contracts. The majority of these costs
(over $34,000) were questioned because the contractor did not maintain supporting documentation
such as receipts, invoices, canceled checks for travel and other direct costs.

The report also noted one material instance on noncompliance, that Hi-Tech claimed direct labor,
other direct costs, and fee that were unallowable and unallocable in accordance with contract terms
and the Federal Acquisition Regulation. The report also noted two internal control matters that were
material: Hi-Tech did not retain documentation supporting all direct labor, travel and other direct
costs billed to the Corporation; and Hi-Tech did not have adequate timekeeping procedures.

The report includes three recommendations to CNS for corrective action, including a
recommendation that it direct the contractor to limit claimed costs to those allowable, to retain all
documentation supporting costs billed, and to require supervisors and employees to sign all
timesheets, initial all corrections, and prohibit the use of correction fluid.

In its response to the draft of this report, the Corporation stated that it had reviewed the draft but did
not have specific comments at this time.




                                                  3                  FY00 Semiannual Report No. 2
                                                                                            AUDITS
OIG Letter Report Regarding Corporation for National and Community Service Contract No. 97-
743-1004 With Abt Associates, Inc. (OIG Audit Report Number 00-55, issued on September 28,
2000)

Under contract to OIG, Cotton & Company, LLP, conducted preliminary survey work of the
Corporation’s contract with Abt Associates, Inc., under which Abt provided evaluation services to the
Corporation. They found that Abt’s cognizant audit agency (DCAA) is currently performing an
incurred cost audit for fiscal years 1998 and 1999, including both direct and indirect costs, and will
soon conduct such an audit for fiscal year 2000. The firm recommended, and OIG agreed, that an
OIG audit is not warranted at this time. Instead, we recommended that the Corporation obtain and
review the upcoming audit reports and follow up any relevant findings.


                    GRANT MANAGEMENT AND OVERSIGHT
The Corporation awards National and Community Service Act and Domestic Volunteer Service Act
grants to state and local governments, state commissions, institutions of higher education, and other
not-for-profit organizations. Grantees are required, among other things, to expend funds only for
allowable costs and to provide periodic reports to the Corporation to demonstrate programmatic and
financial compliance with the terms of the respective grant agreements. The Corporation is
responsible for ensuring that grantees comply with applicable laws and regulations related to the
administration of grant awards, including those related to Federal cash management requirements.

The Audit Section performs audits of the Corporation’s oversight of grantees and audits of specific
grants to assess whether reported costs were allowable under Federal regulations and whether
grantees complied with the terms and conditions of the award. Our reports on Corporation grants
contain recommendations for correcting the deficiencies identified in the reports. Typically, the
recommendations are for the grantees to reimburse questioned costs and to establish and implement
policies and procedures to prevent future instances of non-compliance and improve internal controls.
We also make recommendations for increased oversight by the Corporation and improvements in
Corporation grants management operations.


State Commission Pre-Audit Surveys

The Corporation for National and Community Service awards grants and cooperative agreements to
state commissions, nonprofit entities, tribes and territories to assist in the creation of full and part time
national and community service programs. Currently, in accordance with the requirements of the
National and Community Service Act, the Corporation awards approximately two-thirds of its
AmeriCorps State/National funds to state commissions. The state commissions in turn fund, and are
responsible for the oversight of, subgrantees that execute the programs.

State commissions play an important role in the oversight of AmeriCorps State/National programs
and expenditures, and the Corporation has indicated that it intends to give state commissions even
greater responsibility. However, the Corporation lacks a management information system that
maintains comprehensive information on its grants, including those to state commissions and their



                                                   4                   FY00 Semiannual Report No. 2
                                                                                       AUDITS
subgrantees. Moreover, although the Corporation began state commission administrative reviews in
1999, the Corporation has not carried out a comprehensive, risk-based program of programmatic
oversight and monitoring of state commissions or their subgrantees. It is also unlikely that
AmeriCorps programs are subject to testing as part of state-wide audits under the Single Audit Act
due to their size relative to other state programs.

Therefore, OIG initiated a series of pre-audit surveys intended to assess risk and to provide basic
information on the state commissions’ operations and funding. The pre-audit surveys are designed to
provide a preliminary assessment of the commissions’ pre-award and grant selection procedures,
fiscal administration, and monitoring of subgrantees, including AmeriCorps Member activities,
service hour reporting, and other information related to the program accomplishments and the
Corporation’s performance measures. The surveys are also intended to provide information on other
audit coverage that may be afforded by the Single Audit Act Requirements. The information will
allow us to determine the timing of and the extent of our future audit work at each state commission.

For each pre-audit survey, OIG issues a report communicating the results and making
recommendations for improvement at the commission. In each report OIG has also recommended
that the Corporation follow up with the commission to determine that appropriate corrective actions
are put into place to address the conditions reported and that the Corporation consider the conditions
in its oversight and monitoring. Our recommendations to the Corporation also included a
recommendation that the Corporation revise its guidance to state commissions to specify minimum
monitoring procedures to be performed, as well as minimum documentation requirements. During
this semiannual reporting period, OIG issued pre-audit survey reports for 18 state commissions:

        Delaware                         Iowa                             North Carolina
        Washington                       Kentucky                         Ohio
        Alaska                           Michigan                         New Jersey
        Rhode Island                     Idaho                            Wisconsin
        Florida                          Minnesota                        Illinois
        Kansas                           New Mexico                       Wyoming

Our recommendations to the state commissions have been specific to address the findings. The most
frequently made recommendations were, in the area of grantee selection, that state commissions
assess the adequacy of grantees’ financial systems, and that they maintain signed conflict of interest
forms for everyone reviewing grant applications. In the area of fiscal administration, the most
recurrent recommendations centered around the proper receipt and review of subgrantee Financial
Status Reports. Concerning the state commissions’ monitoring and oversight of its subgrantees, the
auditors most often recommended improvement of the state commissions’ monitoring systems and
documentation, establishing written procedures for follow-up on deficiencies noted, and proper
review and documentation of subgrantee audits under OMB Circular A-133.

OIG also issued a report to Congress and the Corporation summarizing pre-audit survey results and
findings of final reports for the first 18 state commission pre-audit surveys. This report is discussed
immediately below.




                                                5                  FY00 Semiannual Report No. 2
                                                                                         AUDITS
Summary of Eighteen State Commission Pre-Audit Survey Reports (OIG Audit Report 00-42)

The first 18 final reports resultant from OIG’s state commission pre-audit surveys were summarized
in this report. As discussed above, the surveys were performed to provide OIG with a preliminary
assessment of the commissions’ pre-award and grant selection procedures, fiscal administration,
monitoring of subgrantees (including AmeriCorps Member activities and service hour reporting), and
the use of training and technical assistance funds.

The summary report concludes that the first 18 pre-audit surveys represent a fair sample of the state
commissions. One of 18 state commissions had established systems that provided reasonable
assurance that pre-award/grantee selection procedures, fiscal administration, grantee monitoring, and
the use of training and technical assistance funds were adequate. All 18 commissions had established
systems to provide reasonable assurance that training and technical assistance is made available to
subgrantees. However, 17 state commissions each had findings in one or more of the other three
areas (grantee selection; fiscal administration; and monitoring and evaluation). Findings occurred
most frequently in the commissions’ monitoring of subgrantees, with only two commissions’
subgrantee monitoring assessed as adequate. Although many of the commissions utilize site visit
monitoring checklists, documentation maintained at the commission level was often insufficient to
allow us to assess the extent of the monitoring that was performed.

In addition to the specific recommendations for improving monitoring at individual state
commissions, we recommended that the Corporation revise its guidance to state commissions to
specify minimum monitoring procedures to be performed, as well as minimum documentation
requirements.

We also recommended improvements in fiscal administration policies and procedures at most of the
commissions. Findings in the area of fiscal administration were most often related to review of and
receipt dates for subgrantee financial status reports. Finally, we learned that only three of the 18 state
commissions had been audited as separate entities or tested as major programs as defined by OMB
Circular A-133, “Audit of States, Local Governments, and Non-Profit Organizations.”


                                    AUDIT RESOLUTION
During the period April 1, 2000 through September 30, 2000, the Corporation issued one final
management decision. The decision responded to OIG Report Number 00-13, Review of the
Corporation Action Plan. OIG disagreed with the management decision to the extent that it failed to
adequately address critical issues identified in the report including, but not limited to, the
Corporation’s lack of a cost accounting system, criteria to measure results and completion of Action
Plan tasks, and independent verification of corrective actions. The Corporation issued no final
management decisions that addressed OIG audit reports containing questioned costs.

As depicted in Table III, on page 17, the Corporation had 16 overdue management decisions, of
which seven relate to OIG reports with questioned costs totaling more than $8.7 million, at September
30, 2000. Moreover, of the 16 overdue management decisions, five were reported as overdue in one
or more prior Semiannual Reports.



                                                  6                  FY00 Semiannual Report No. 2
                                                                                  AUDITS

As depicted in Table V (pages 21 through 25), OIG’s review of audit reports issued since April 30,
1997 indicates that 309 of 493 recommendations on CNS management issues remain open; 122 of the
open recommendations relate to reports issued prior to fiscal year 2000.

OIG’s performance information (page 26) indicates that the percentage of OIG audit
recommendations accepted by the Corporation rose from 84 percent in fiscal year 1999 to 87 percent
in fiscal year 2000.




                                              7                 FY00 Semiannual Report No. 2
                                                                                   AUDITS


                  AUDIT REPORTS ISSUED DURING THE PERIOD
                   APRIL 1, 2000 THROUGH SEPTEMBER 30, 2000



Report       Issue
Number       Date                                  Report Name

  00-06     5/18/00    Pre-Audit Survey Report of the Delaware Community Service
                       Commission

  00-07     5/18/00    Pre-Audit Survey Report of the Iowa Commission on Volunteer
                       Service

  00-08     5/30/00    Pre-Audit Survey Report of the North Carolina Commission on
                       Volunteerism and Community Service

  00-10     5/10/00    Pre-Audit Survey Report of the Washington Commission on National
                       and Community Service

  00-11     6/20/00    Pre-Audit Survey Report of the Kentucky Commission on
                       Community Volunteerism and Service

  00-12     9/25/00    Follow-up Audit of the Corporation’s Procurement Operations

  00-15     4/12/00    Pre-Audit Survey of the Ohio Governor’s Community Service
                       Council

  00-22     9/22/00    Audit of Corporation for National and Community Service Contract
                       No. CNCS-94-002 with Encore Management Corporation(1)

  00-23     6/15/00    Audit of the Corporation for National and Community Service
                       Contracts No. CNCS 94-003 and No. 95-002 with Hi-Tech
                       International, Inc.(2)

  00-24     8/8/00     Pre-Audit Survey Report of the Alaska State Community Service
                       Commission

(1)
  As described in Table I, this report included questioned costs of $1,102,982 in Federal
funds of which $156,684 is unsupported costs.
(2)
   As described in Table I, this report included questioned costs of $36,852 in Federal funds
of which $28,842 is unsupported costs.




                                             8                 FY00 Semiannual Report No. 2
                                                                           AUDITS

             AUDIT REPORTS ISSUED DURING THE PERIOD
              APRIL 1, 2000 THROUGH SEPTEMBER 30, 2000


00-25   7/12/00   Pre-Audit Survey Report of the Michigan Community Service
                  Commission

00-26   6/23/00   Pre-Audit Survey Report of the New Jersey Commission on National
                  and Community Service

00-27   6/23/00   Pre-Audit Survey Report of the Rhode Island Service Alliance: A
                  Commission for National and Community Service

00-28   7/7/00    Pre-Audit Survey Report of the Idaho Commission for National and
                  Community Service

00-29   6/23/00   Pre-Audit Survey Report of the Wisconsin National and Community
                  Service Board

00-30   9/20/00   Pre-Audit Survey of the Florida Commission on Community Service


00-31   6/9/00    Pre-Audit Survey of the Minnesota Commission on National and
                  Community Service

00-32   6/29/00   Pre-Audit Survey of the Illinois Commission on Community Service

00-33   9/29/00   Pre-Audit Survey of the Kansas Commission for National and
                  Community Service

00-34   7/26/00   Pre-Audit Survey of the New Mexico Commission for Community
                  Volunteerism

00-35   5/16/00   Pre-Audit Survey of the Wyoming Commission for National and
                  Community Service

00-38   6/27/00   Recommended Improvements to the Corporation's Internal Controls
                  Fiscal Year 1999 – Management Letter

00-42   9/27/00   Summary of Eighteen State Commission Pre-audit Survey Reports

00-55   9/28/00   OIG Letter Report Regarding Corporation for National and
                  Community Service Contract No. 97-743-1004 with Abt Associates,
                  Inc.




                                      9                 FY00 Semiannual Report No. 2
                      INVESTIGATIONS SECTION

We began this reporting period with 25 previously opened investigative actions. During the reporting
period we opened 30 new investigative actions and closed 22. We had 33 investigative actions
pending at the end of this reporting period.


                HIGHLIGHTS OF INVESTIGATIONS CLOSED
                   DURING THIS REPORTING PERIOD
Grantee Employee Embezzles Funds – Sentenced to Confinement and Restitution

We completed an investigation we opened after receiving a hotline call reporting an embezzlement of
funds from an AmeriCorps grant. We determined the grantee’s fiscal officer discovered an employee
working for the AmeriCorps program had embezzled Federal funds. The employee used forged travel
vouchers and purchase orders to obtain rental vehicles, a cellular telephone, and other items for her
personal use. The employee also received reimbursement for fraudulent travel expenses. The grantee
fired the employee, and local authorities arrested the former employee shortly thereafter. On July 20,
2000, the former employee pled guilty in state court and was sentenced to six years confinement, with
all but twenty-five consecutive weekends suspended, six years probation, and restitution of $7,600.
(00-014)

Forgery Results in AmeriCorps Member Termination – Unearned Stipend Recovered

We completed an investigation we opened when a Corporation program officer informed us that a
state commission had reported possible fraudulent activity with regard to an AmeriCorps member’s
timesheet at a commission-funded AmeriCorps program. We learned the AmeriCorps member was
terminated and that there was evidence the former AmeriCorps member forged her site coordinator’s
name to her timesheet over a seven-month period. Further, the former AmeriCorps member did not
serve the hours claimed on the forged timesheet. The U.S. Attorney declined to prosecute, and we
referred the matter to the local District Attorney’s Office and the local Police Department. The
former AmeriCorps member agreed to make restitution, in lieu of prosecution, for service hours not
worked during the seven-month period. A total of $1,862.68 was recovered and prosecution was not
pursued. (00-038)

AmeriCorps Member Timesheets Falsified – Corporation Recovers $237,000 from Grantee

We completed an investigation we opened when Corporation management reported that several
AmeriCorps members might have falsified their timesheets, with the knowledge of the program
director, allowing them to earn an educational award without completing the required number of
service hours. We interviewed 25 current and former AmeriCorps members. The majority of these
AmeriCorps members admitted to performing service that would not count as credible volunteer
service. All of the AmeriCorps members claimed they relied on instructions provided to them by the
program director or program staff. We also interviewed several former staff members. These
interviews substantiated the statements provided by the AmeriCorps members. The U.S. Attorney’s
Office declined to prosecute or pursue civil recovery. The Corporation received $237,189.68 from



                                               10                 FY00 Semiannual Report No. 2
                                                                    INVESTIGATIONS
the state commission as reimbursement for unearned education awards already paid and for
questioned grant costs. (99-029)

Former Director Incarcerated – Misapplication of Funds Discovered

We completed an investigation we opened after receiving information alleging that the director of a
state commission funded AmeriCorps program was a convicted child molester and was working with
children in his program. It was also alleged that the director misapplied AmeriCorps funds. The
former director is presently incarcerated following his conviction for sexual assault. We found
nothing to indicate the state commission was aware of this conviction prior to our involvement. Prior
to his incarceration, the former director, at the request of the commission, provided the commission
copies of program records. Review of these records indicates approximately $20,000 of Corporation-
provided grant funds were misapplied or misappropriated by the former director. Federal, state, and
local authorities declined to pursue prosecution inasmuch as the former director is incarcerated and
has no identifiable assets for forfeiture. We coordinated recovery of the grant funds from the
commission with the executive director of the commission and with the Corporation’s Director of
Grants. The matter was referred to Corporation management on August 18, 2000, for recovery of the
funds. (98-029)

Paid Substitute Teachers Earn AmeriCorps Education Award – Referred to Management

We completed an inquiry we opened after a confidential source provided information that
AmeriCorps members were earning service hours while engaged in an activity (substitute teaching)
for which they were being otherwise compensated. The assistant teachers that served as education
award only AmeriCorps members were recruited from the Teacher Assistant Program, a program
mandated and funded by the state’s legislature. The assistant teachers, both those enrolled in the
AmeriCorps program and those that are not enrolled in the program, receive a salary from the state.
During the 1999-2000 school year, this salary was $9,115 for the year.

It appears that the AmeriCorps members enrolled in the AmeriCorps program qualify for an
education award from the National Service Trust with little more than 108 hours of uncompensated
service (3 hours per week, 36 weeks per school year, equals 108 hours). While there are other
objectives enumerated in the grant, none of the other objectives require an effort by the AmeriCorps
members that is quantified by hours of service performed.

This matter was referred to Corporation management on September 27, 2000. The referral
documented OIG concerns regarding non-duplication, non-displacement, and the appearance created
by salaried employees receiving AmeriCorps education awards under such circumstances.
Management’s response will be reported when it is received. (99-040)

No Ethics Violations Found in Relationship with Grantee - Errors Made in Travel Claims
Corporation Failed to Enforce Grant Compliance

We completed an inquiry into circumstances surrounding officers and employees of the Corporation
accepting free rooms, free meals, free registration and discounted registration from the Points of Light
Foundation, a Corporation grantee, in connection with a conference co-sponsored by the Corporation
and the Points of Light Foundation. We initiated this inquiry after the Inspector General received a


                                                11                 FY00 Semiannual Report No. 2
                                                                   INVESTIGATIONS
request from Senator Charles E. Grassley and Senator Christopher S. Bond that we inquire into
various circumstances regarding Corporation employee attendance at the 1999 National Service
Community Conference held in Las Vegas, NV.

Although we felt the actions of Corporation officers and employees could be criticized for creating
the appearance of a conflict of interest, we found no violations of law or ethics regulations. We found
that the Points of Light Foundation was not complying with the provisions of the cooperative
agreement with the Corporation and that the Corporation had taken no steps to enforce compliance.

Our report, with recommendations regarding ethics issues, travel claims, and compliance matters, was
provided to Corporation management. Corporation management responded to the ethics issues by
stating the Corporation exercises caution in its relationship with all grantees and by stating that the
Corporation had established policies and procedures that specify who and how they will accept gifts.
Corporation management responded to the travel claims issues by providing specific guidance,
instructions, and sample travel orders and travel vouchers to employees attending future conferences.
Corporation management responded to the compliance issues by agreeing that they were not as
diligent as they should have been, but added that they did not believe that their not requiring the
Points of Light Foundation to submit Financial Status Reports was indicative of how they monitored
their grantees. (99-037)

Employee Travel Card Misuse – Referred to Management

We completed an inquiry that we opened after we received information that a Corporation employee
had over $8,000 in delinquent travel charges on his Bank of America travel charge card account. The
employee’s Bank of America charge card statements reflected over $26,000 in charges and
comparison of the employee’s requests for travel reimbursement with the charge card statements
indicates that only $4,000 of the $26,000 in charges was for official travel. The employee claimed his
roommate used his travel card without his (the employee’s) permission. We interviewed and obtained
written statements from the employee. The employee admitted using his official travel card for
personal purchases, but refused to divulge the name of his roommate. A report was provided to
Corporation management on September 27, 2000, documenting the employee’s misuse of his travel
charge card and refusal to cooperate during an OIG investigation, all in apparent violation of ethics
principles for Federal employees. Management’s response will be reported when it is received. (00-
043)

Contractor Overbills Corporation – U.S. Attorney Declines Prosecution in Favor of Audit

We completed an investigation we opened upon receiving information that a Corporation contractor
may have submitted false claims to the Corporation. Our investigation disclosed evidence that the
contractor overbilled the Corporation when the contractor incorrectly classified a portion of their
costs. Records subpoenaed from the contractor and the contractor’s accountant indicated the
contractor was aware of the overbilling. The U.S. Attorney’s Office initially accepted this matter, but
action was postponed pending a contract closeout audit. The closeout audit was conducted (OIG
Audit Report Number 00-22) and the U.S. Attorney’s office subsequently declined to pursue this
matter in favor of administrative settlement options available to the Corporation. Final resolution of
this matter now rests with the Corporation. (98-036)



                                                12                 FY00 Semiannual Report No. 2
                                                                                            INVESTIGATIONS


                           STATISTICAL SUMMARY OF INVESTIGATIONS


Opened and Closed

Number of Cases Open at Beginning of Reporting Period..............................                                  25


Number of New Cases Opened During This Reporting Period.......................                                       30


Number of Cases Closed During This Period With
Significant Findings.........................................................................................         8


Number of Cases Closed During This Period With
No Significant Findings...................................................................................           14


Total Cases Closed This Reporting Period......................................................                       22


Number of Cases Open at End of Reporting Period........................................                              33


Referred

Number of Cases Referred for Prosecution During
This Reporting Period......................................................................................           6


Number of Cases Accepted for Prosecution During
This Reporting Period......................................................................................           3


Number of Cases Declined for Prosecution During
This Reporting Period......................................................................................           2

Number of Cases Pending Prosecutive Review...............................................                             1




                                                                13                         FY00 Semiannual Report No. 2
    REVIEW OF LEGISLATION & REGULATIONS

Section 4 (a)(2) of the Inspector General Act requires the Office of the Inspector General to review
and make recommendations about existing or proposed legislation and regulations relating to the
Corporation’s programs and operations. OIG recommendations are to address the impact of
legislation and regulations on the economy and efficiency of the administration of the Corporation’s
programs and operations. OIG is also to make recommendations concerning the impact of legislation
and regulations on the prevention and detection of fraud and abuse in programs and operations
administered or financed by the Corporation.

OIG’s review of legislation and regulations during this reporting period included tracking the
Corporation appropriations bills for fiscal year 2001, a supplemental appropriations bill that provided
additional funds in the amount of $1 million to CNS OIG, a bill to amend the Inspector General Act,
and a bill to reauthorize the Corporation for National and Community Service. All bills were
analyzed for their potential impact on OIG and the Corporation.


                                   REAUTHORIZATION
During the reporting period, reauthorization of the Corporation was supported by the Corporation and
considered by the U.S. Congress. OIG considered its recent audit and investigative work in light of
the possibility of reauthorization of the Corporation. OIG has noted the Corporation’s impetus
towards devolution of responsibility for grant award and oversight to state commissions. OIG’s pre-
audit surveys of state commissions to date indicate that some state commissions have as few as three
full-time equivalent (FTE) staff while one state commission has 26 FTEs. OIG’s pre-audit surveys
have also revealed findings at state commissions relating to their selection of grantees, fiscal
administration of grant funds, and monitoring and oversight of grantees. OIG would urge
consideration of the range of resources available to state commissions as reauthorization is
contemplated.

OIG also notes a duplication of resources at the state level as nearly every state has a state
commission and a state office. Consolidation of offices, to include location and possibly function,
might lead to greater efficiencies.




                                                14                 FY00 Semiannual Report No. 2
                               TABLE I
           INSPECTOR GENERAL REPORTS WITH QUESTIONED COSTS


                                                                     Federal Costs
                                                 Number       Questioned      Unsupported
                                                                   (Dollars in thousands)

1.   For which no management decision had             8          $ 9,275              $ 2,319
     been made by the commencement of the
     reporting period

2.   Which were issued during the reporting
     period

     Audit of CNS Contract with Encore                1              1,103                    157
     Management Corporation (Audit Report
     No. 00-22)

     Audit of CNS Contract No. CNCS 94-003            1                  37                    29
     & No. 95-002 with Hi-Tech International,
     Inc. (Audit Report No. 00-23)                    _             _____                   _____

3.   Subtotals (1 plus 2)                            10            10,415                    2,505


4.   For which a management decision was
     made during the reporting period

     (i) dollar value of disallowed costs             0                    0                    0

     (ii) dollar value of costs not disallowed        0                    0                    0

5.   For which no management decision had
     been made by the end of the reporting
                                                     10           $10,415                   $2,505
     period (3 minus 4)


6.   Reports with questioned costs for which          7            $8,729                   $2,319
     no management decision was made within
     six months of issuance




                                            15            FY00 Semiannual Report No. 2
                           TABLE II
      INSPECTOR GENERAL REPORTS WITH RECOMMENDATIONS
               THAT FUNDS BE PUT TO BETTER USE


                                                           Number       Dollar Value
                                                                      (Dollars in thousands)


A.   For which no management decision had been made           0                $0
     by the commencement of the reporting period


B.   Which were issued during the reporting period            0                $0


C.   For which a management decision was made during
     the reporting period


     (i) dollar value of recommendations that were
         agreed to by management


         based on proposed management action                  0                $0


         based on proposed legislative action                 0                $0


     (ii) dollar value of recommendations that were not       0                $0
          agreed to by management


D.   For which no management decision has been made           0                $0
     by the end of the reporting period


     Reports for which no management decision was             0                $0
     made within six months of issuance




                                        16                FY00 Semiannual Report No. 2
                          TABLE III
    SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT DECISIONS

                                                             Federal     Management
Report                                                       Dollars      Decision
Number          Title                                       Questioned      Due

00-01    Audit of the Corporation for National and             __           9/27/00
         Community Service’s Fiscal Year 1999 Financial
         Statements
00-02    Audit of Corporation for National and               $ 7,279        5/29/00
         Community Service Contract No. CNCS-94-004
         and 97-743-1006 with Aguirre International
00-04    Evaluation of the Corporation’s Oversight and         __           6/11/00
         Monitoring of the Cooperative Agreement with
         the National Association of Child Care
         Resources Referral Associates
00-05    Audit of Corporation for National and               22,085         6/3/00
         Community Service Grant Numbers 340A167/01
         & 02; 339A041/16 & 17; 336A015/17 & 18 with
         the Health Association of Niagra County, Inc.
00-09    Pre-Audit Survey of the Tennessee Commission          __           8/7/00
         on National and Community Service
00-14    Pre-Audit Survey of the Pennsylvania                  __           9/28/00
         Commission on National and Community
         Service
00-16    Pre-Audit Survey of the West Virginia                 __           9/27/00
         Commission on National and Community
         Service
00-17    Pre-Audit Survey of the Missouri Community            __           9/28/00
         Service Commission
00-18    Pre-Audit Survey of the Virginia Commission on        __           9/24/00
         National and Community Service
00-19    Pre-Audit Survey of the New Hampshire                 __           8/7/00
         Commission on National and Community
         Service
00-21    Audit of the Corporation for National and          7,379,847       7/5/00
         Community Service Contract No. 95-743-1005
         with Outsourced Administration Systems, Inc.
                                                                          (continued)




                                       17                 FY00 Semiannual Report No. 2
                          TABLE III
    SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT DECISIONS

                                                         Federal     Management
Report                                                   Dollars      Decision
Number          Title                                   Questioned      Due

99-04    Audit of Congressional Hunger Center           $ 233,032       7/21/00
         Cooperative Agreement No. 96ADNDC099
99-09    Audit of Corporation for National and           739,458        11/2/99
         Community Service Contract No. 95-743-1009
         with Biospherics, Inc.
99-10    Audit of Corporation for National and           296,665        1/29/00
         Community Service Contract No. 95-001 with
         TvT Associates, Inc.
99-15    Audit of the Corporation’s Oversight and          __           3/13/00
         Monitoring of the Health Benefits Program
99-18    Audit of Corporation for National and           50,850         2/23/00
         Community Service Contract No. 97-743-1001
         with GS Tech, Inc.

                             Total                     $8,729,216




                                       18             FY00 Semiannual Report No. 2
                              TABLE IV
                REPORTS DESCRIBED IN PRIOR SEMIANNUAL
                    REPORTS WITHOUT FINAL ACTION

                                                                                Final
Report                                                               Date       Action
Number                            Title                             Issued       Due

97-02    Audit of Commission on National and Community             12/23/96    12/23/97
         Service Award Number 92COSTOR0021 to the
         Oregon Youth Conservation Corps
97-12    Review of Corporation for National Service Award          4/11/97      4/11/98
         Number 95ADNDC003 to The National Alliance of
         Veteran Family Service Organizations
98-02    Review of Corporation for National and Community          4/27/98      4/27/99
         Service Pre-award Financial Assessment of Grant
         Applicants
98-15    Audit of Corporation the National Service Award           6/29/98      6/29/99
         Number 94ADMAZ033 Navajo Nation
98-16    Audit of Corporation for National Service Award           6/29/98      6/29/99
         Number 94ADNKS060 Youth Volunteer Corps of
         America
98-19    Assessment of AmeriCorps Service Hour Reporting           8/27/98      8/27/99

98-23    Auditability Assessment of the Corporation for             7/8/98      7/8/99
         National Service at September 30, 1997

99-01    Audit of Corporation for National and Community           10/9/98      10/9/99
         Service Statement of Financial Position (September
         30, 1997)
99-02    Recommended Improvements to the Corporation’s             11/17/98    11/17/99
         Internal Controls (Management Letter)
99-04    Audit of Congressional Hunger Center Cooperative          1/22/99      1/22/00
         Agreement No. 96ADNDC099

99-05    Evaluation of the Corporation’s Monitoring and            2/26/99      2/26/00
         Oversight of Cooperative Agreement Awarded to
         Congressional Hunger Center

99-06    Review of the Corporation’s Liability for Post-service    12/23/98    12/23/99
         Benefits Related to Former Commission on National
         and Community Service Grants



                                          19                FY00 Semiannual Report No. 2
                                TABLE IV
                  REPORTS DESCRIBED IN PRIOR SEMIANNUAL
                      REPORTS WITHOUT FINAL ACTION

                                                                                    Final
Report                                                                   Date       Action
Number                             Title                                Issued       Due

 99-07     Audit of Corporation for National and Community             7/22/99      7/22/00
           Service Contracts No. 93-743-1005 and No. 96-743-
           1008 with Ogilvy Adams & Rinehart

 99-09     Audit of Corporation for National Service Contract           5/6/99      5/6/00
           No. 95-743-1009 with Biospherics, Inc.

 99-10     Audit of Corporation for National and Community              8/2/99      8/2/00
           Service Contract No. 95-001 with TvT Associates,
           Inc.
 99-11     Audit of Corporation for National Service Contracts         3/19/99     3/19/00(1)
           No. 96-743-1002 and No. 97-743-1005 with
           Advanced Systems Technology Corporation

 99-12     Audit of the Corporation for National and Community          4/9/99      4/9/00
           Service’s Fiscal Year 1998 Financial Statements

 99-15     Audit of Corporation’s Oversight and Monitoring of          9/14/99      9/14/00
           the Health Benefits Program

 99-18     Audit of Corporation for National and Community             8/27/99      8/27/00
           Service Contract No. 97-743-1001 with GS Tech, Inc.

 99-19     Letter Report on Review of ETR Audits that Cover            5/25/99      5/25/00
           Corporation for National Service Cooperative
           Agreement Number CA95-06

 99-24     Recommended Improvements to the Corporation’s               6/30/99      6/30/00
           Internal Controls – Fiscal Year 1998 Management
           Letter


(1) The Corporation has transmitted its notice of final action. However, OIG does not agree
    that all findings have been resolved.




                                           20                   FY00 Semiannual Report No. 2
                                     TABLE V
                         STATUS OF RECOMMENDATIONS ON
                        CORPORATION MANAGEMENT ISSUES

                                                Number of         Corrective
                                             Recommendations       Action           Open
                                               in Reports(1)      Completed    Recommendations

Financial Management

Recommended Improvements to the                    34                 6              28
Corporation’s Internal Controls – Fiscal
Year 1998 Management Letter (OIG
Audit Report 99-24, issued 6/30/99)

Audit of the Corporation for National and          22                 4              18
Community Service Fiscal Year 1998
Financial Statements (OIG Audit Report
99-12, issued 4/9/99)

Recommended Improvements to the                    12                 9              3
Corporation’s Internal Controls –
Management Letter (OIG Audit Report
99-02, issued 11/17/98)

Audit of the Corporation for National and          2                  0              2
Community Service FY 97 Statement of
Financial Position (OIG Audit Report 99-
01, issued 10/9/98)

Auditability Assessment of the                    141                117             24
Corporation for National Service at
September 30, 1997 (OIG Audit Report
98-23, issued 7/8/98)

Recommended Improvements to the                    36                 0              36
Corporation’s Internal Controls Fiscal
Year 1999 – Management Letter (OIG
Audit Report 00-38, issued 6/27/00)

Review of the Corporation for National             53                11              42
and Community Service Action Plan
(OIG Audit Report 00-13, issued 12/1/99)




                                            21                 FY00 Semiannual Report No. 2
                                    TABLE V
                        STATUS OF RECOMMENDATIONS ON
                       CORPORATION MANAGEMENT ISSUES

                                                Number of         Corrective
                                             Recommendations       Action           Open
                                               in Reports(1)      Completed    Recommendations

Audit of the Corporation for National and          30                 0              30
Community Service’s Fiscal Year 1999
Financial Statements (OIG Audit Report
00-01, issued 3/31/00)

Grant Oversight and Monitoring

State Commission Pre-Audit Surveys                 2                  0              2

Review of the Corporation’s Liability for          4                  2              2
Post-Service Benefits Related to Former
Commission on National and Community
Service Grants (OIG Audit Report 99-06,
issued 12/23/98)

Assessment of AmeriCorps Service Hour              18                14              4
Reporting (OIG Audit Report 98-19,
issued 8/27/98)

Review of the Corporation for National             3                  1              2
and Community Service Pre-Award
Financial Assessment of Grant Applicants
(OIG Audit Report 98-02, issued 4/27/98)

Audit of Corporation for National and              2                  0              2
Community Service Grant Numbers
340A167/01 & 02; 339A041/16 & 17;
336A015/17 & 18 with the Health
Association of Niagra County, Inc. (OIG
Audit Report 00-05, issued 12/6/99)

Evaluation of the Corporation’s Oversight          18                 0              18
and Monitoring of the Cooperative
Agreement with the National Association
of Child Care Resources Referral
Associations (OIG Audit Report 00-04,
issued 12/14/99)




                                            22                 FY00 Semiannual Report No. 2
                                    TABLE V
                        STATUS OF RECOMMENDATIONS ON
                       CORPORATION MANAGEMENT ISSUES

                                                Number of         Corrective
                                             Recommendations       Action           Open
                                               in Reports(1)      Completed    Recommendations

Procurement and Contract Management

Audit of Corporation’s Procurement and             26                16              10
Contracting Processes and Procedures
(OIG Audit Report 98-24, issued 9/30/98)

Follow-up Audit of the Corporation’s               25                 0              25
Procurement Operations (OIG Audit
Report 00-12, issued 9/25/00)

Letter Report on Review of ETR Audits              1                  0              1
that Cover Corporation for National
Service Cooperative Agreement Number
CA95-06 (OIG Audit Report 99-19,
issued 5/25/99)

Audit of Corporation for National and              3                  0              3
Community Service Contract No. 97-743-
1001 with GS Tech, Inc. (OIG Audit
Report 99-18, issued 8/27/99)

Audit of Corporation’s Oversight and               11                 0              11
Monitoring of the Health Benefits
Program (OIG Audit Report 99-15, issued
9/14/99)

Audit of Corporation for National and              19                 0              19
Community Service Contract No. 95-743-
1005 with Outsourced Administrative
Systems, Inc. (OIG Audit Report 00-21,
issued 1/6/00)

Audit of Corporation for National Service          5                  0              5
Contracts No. 96-743-1002 and No. 97-
743-1005 with Advanced Systems
Technology Corporation (OIG Audit
Report 99-11, issued 3/19/99)




                                            23                 FY00 Semiannual Report No. 2
                                     TABLE V
                         STATUS OF RECOMMENDATIONS ON
                        CORPORATION MANAGEMENT ISSUES

                                                Number of         Corrective
                                             Recommendations       Action           Open
                                               in Reports(1)      Completed    Recommendations

Audit of Corporation for National and              2                  0              2
Community Service Contract No. 95-001
with TvT Associates, Inc. (OIG Audit
Report 99-10, issued 8/2/99)

Audit of Corporation for National and              3                  0              3
Community Service Contract No. 95-743-
1009 with Biospherics, Inc. (OIG Audit
Report 99-09, issued 5/6/99)

Audit of Corporation for National and
Community Service Cooperative
Agreement No. 96CA000001 with                      4                  3              1
Walker & Company, LLP (OIG Audit
Report 00-03, issued 11/30/99)

OIG Letter Report Regarding Corporation            1                  0              1
for National and Community Service
Contract No. 97-743-1004 with Abt
Associates, Inc. (OIG Audit Report 00-
55, issued 9/28/00)

Audit of Corporation for National and              3                  0              3
Community Service Contract No. CNCS
94-003 and No. 95-002 with Hi-Tech
International, Inc. (OIG Audit Report 00-
23, issued 6/15/00)

Audit of Corporation for National and              6                  0              6
Community Service Contract No. CNCS-
94-002 with Encore Management
Corporation (OIG Audit Report 00-22,
issued 9/22/00)

Audit of Corporation for National and              2                  0              2
Community Service Contract No. CNCS-
94-004 and 97-743-1006 with Aguirre
International (OIG Audit Report 00-02,
issued 11/30/99)




                                            24                 FY00 Semiannual Report No. 2
                                        TABLE V
                            STATUS OF RECOMMENDATIONS ON
                           CORPORATION MANAGEMENT ISSUES

                                              Number of         Corrective
                                           Recommendations       Action           Open
                                             in Reports(1)      Completed    Recommendations


Audit Resolution

OIG FY 97 Semiannual Report 1 (OIG                5                 1               4
Audit Report SAR 97-1, issued 4/30/97)



                   Total                         493               184            309

(1)
   The number of recommendations in this table is less then the total of all recommendations
related to CNS management issues that have been made since fiscal year 1997 because, for
reports issued prior to FY 2000, recommendations that were repeated from year-to-year, were
“netted” – counted only once. In FY 2000, OIG discontinued this practice.




                                         25                  FY00 Semiannual Report No. 2
    OIG FY 2000 PERFORMANCE INFORMATION

                                  MISSION STATEMENT
The Corporation’s Office of Inspector General is authorized by the Inspector General Act of 1978, as
amended, to –

    •   Conduct independent and objective audits and investigations.

    •   Promote organizational economy, efficiency and effectiveness.

    •   Prevent and detect fraud, waste, and abuse.

    •   Review and make recommendations regarding existing and proposed legislation and
        regulations relating to CNS programs and operations.

    •   Keep the Chief Executive Officer, the Corporation’s Board of Directors, and the Congress
        fully and currently informed of problems in agency programs and operations.


                                    STRATEGIC GOALS
OIG has established the following goals for its operations –

    •   Identify opportunities for increased economy and efficiency in agency operations; assist
        management by identifying, recommending, and developing appropriate management
        reforms.

    •   Protect the integrity of the Corporation’s programs, operations, and financial management by
        identifying and mitigating existing risks or emerging vulnerabilities that may result from
        changes in the Corporation’s operations, from changing legal and administrative
        requirements, or from other changes in the environment in which the Corporation operates.

    •   Carry out the intent of GPRA by (a) providing the Corporation with objective assessments of
        the integrity of the systems that it uses to compile performance information and its reliability
        and (b) changing the focus of OIG audits and other services to focus more on management
        performance and programmatic outcomes and less on compliance.

    •   Improve the quality and delivery of OIG work products.




                                                26                 FY00 Semiannual Report No. 2
                          FY00 PERFORMANCE INFORMATION


                   QUANTITATIVE AUDIT PERFORMANCE MEASURES

                                                                       FISCAL YEAR

                                                             1999          2000         2000
                                                             Actual         Goal        Actual


Number of Reports Issued(1)                                   22            34             38

Number of Reports Issued                                      13            10              5
Linked to Improving CNS Management (OIG
Strategic Goal 1) (2)

Number of Recommendations Linked to Goal 1(3)                n/a(4)         __          201

Number of Reports Issued                                      22            34             38
Linked to Protecting the Integrity of Programs,
Operations, and Financial Management (OIG Strategic
Goal 2)

Number of Recommendations Linked to Goal 2                   n/a(4)         __             __
                                     …to CNS                                            262
                                     …to Grantees                                       163
                                     …to Contractors                                     21

Number of Reports Issued Linked to Carrying Out The            0             1              1
Intent of GPRA (OIG Strategic Goal 3)

Number of Recommendations Linked to Goal 3                   n/a(4)         __              2

Total Number of Audit Recommendations(3)                     n/a(4)         __          446

Percent of Recommendations Accepted by CNS                   84%            95%         87%

(1)
      The increase in FY 2000 reports indicates the beginning of our state commission
      audits and includes 24 state commission pre-audit survey reports.
(2)
      FY 1999 reports included six letter reports to Congress commenting on CNS’ Action
      Plan. Six audits in this category were in progress at the end of fiscal year 2000.
(3)
      The number of recommendations that will be included in a report can not be predicted.
(4)
      FY 1999 statistics on the number of recommendations by category are not available.




                                              27                   FY00 Semiannual Report No. 2
                              FY00 PERFORMANCE INFORMATION
In accordance with our fourth strategic goal, improving the quality and delivery of OIG services,
reports and other work products, OIG monitors the number of audit reports issued annually and their
timeliness, as illustrated and discussed below.


                                   AUDIT PERFORMANCE STATISTICS
                                                                                Fiscal Year

                                                                 1998               1999               2000

       Number of Audit Reports(1)                                 22                  22                38
       Number of Testimonies                                       -                  4                  2
       Number of Reports Requested by                             12                  18                 7
       Congressional Staff
       Questioned Costs (dollars in thousands)                  $1,776             $2,344             $8,558
       Recommendations That Funds Be Put To
       Better Use (dollars in thousands)                        $1,618           $106,000(2)            $0
                             (3)
       Costs per Audit Hour;
          OIG Staff                                              $70                 $68               $61
          Contracted Services                                    $66                 $67               $76
       Timeliness(4)                                           223 days           173 days          184 days

 (1)
    As shown above, OIG substantially increased the number of FY2000 audit reports issued over previous
   fiscal years, primarily due to the issuance of 24 state commission pre-audit survey reports.
 (2)
   This amount represents an audit adjustment to reduce the Corporation’s service award liability at
   September 30, 1998, which was agreed to by the Corporation during the fiscal year 1998 financial audit. In
   Public Law 106-74, the Departments of Veterans Affairs, Housing and Urban Development, and other
   independent agencies’ fiscal year 2000 appropriations bill, Congress included language recognizing this
   adjustment and rescinded $80 million previously appropriated to the National Service Trust.
 (3)
   OIG staff cost per hour estimate is based on the total salary and benefit costs for audit staff divided by the
   direct hours charged to audit assignments. This figure for fiscal year 2000 is low because of OIG’s staffing
   configuration during the year, which included proportionately fewer senior level personnel compared to
   fiscal years 1998 and 1999. Cost per hour for contracted services increased in FY2000 because four of
   OIG’s major audits required the use of experts and more experienced personnel at the management level.
 (4)
   From inception of an audit/review through issuance of the final report, which includes a 30 day response
   period. Much of the decrease realized in FY1999 was attributable to five reports providing OIG’s
   comments on the Corporation’s corrective Action Plan and subsequent updates. As required by Congress,
   OIG’s reports were due within 30 days after the Corporation issued its report. If these reports are removed
   from consideration, the timeliness of reports of fiscal year 1999 was 214 days. The issuance of 24 pre-audit
   survey reports during FY2000 reduced the time needed to perform an OIG audit/review to 184 days.




                                                     28                   FY00 Semiannual Report No. 2
                           FY00 PERFORMANCE INFORMATION

            INVESTIGATIONS PERFORMANCE INFORMATION
The basic mission of the OIG investigative element is to lawfully determine as many of the facts as
possible surrounding a given incident. The incident under review may include allegations of criminal
activity, allegations of non-criminal activity, or allegations that include both criminal activity and
non-criminal activity. The basic mission of the investigative element remains unchanged regardless
of the nature of the incident: Determine as many facts as possible surrounding a given incident. How
an allegation is developed, i.e., reactively or pro-actively, has no impact on the basic mission.

What occurs after the initial receipt of a complaint, allegation, or information that results in the
development of a complaint or allegation, varies, depending primarily upon whether the matter is
criminal or non-criminal, and if criminal, whether or not it is accepted by the Department of Justice
for prosecution.

All matters involving evidence of Federal criminal violations are referred to the Department of Justice
for a prosecutive decision. This does not mean that all allegations of Federal criminal violations are
referred; only those with evidence of a Federal criminal violation are referred, with some exceptions.
For example, all allegations of significant fraud and all allegations against certain senior government
officials are referred to the Department of Justice without regard to the amount of evidence available
at the time the allegations are received. Many of the criminal matters we investigate involving
Corporation programs and operations are declined for prosecution by the Department of Justice
because of the low dollar amounts involved. We have had no declinations of a criminal matter
because of our inability to sufficiently develop evidence of criminal misconduct. Some of our
referrals that are declined by the criminal section of the Department of Justice are accepted by the
civil section for civil enforcement.

Those matters that are determined to be non-criminal and those matters that have been declined for
prosecution or civil enforcement by the Department of Justice are often referred to Corporation
management for administrative action. This administrative action might involve suspension or even
removal of an employee. Administrative action could also involve a redesign or refinement of a
process or system that was identified by our efforts as one that could be improved. When OIG refers
such matters to management, we usually request that management provide us a brief narrative of
what, if any, administrative action was taken as a result of the referral to them.

One other area that deserves mention involves those matters (criminal and non-criminal) that OIG
finds did not occur, did not occur as alleged, or were not within our purview. While some of these
matters are as important as a founded criminal investigation (and as such are identified and
documented separately), the majority are minor and are combined in one quarterly file, without
opening a separate investigative action. Regardless of the severity however, each matter requires
some degree of preliminary inquiry. The following table presents statistics on OIG’s investigative
workload.




                                                29                 FY00 Semiannual Report No. 2
                 FY00 PERFORMANCE INFORMATION


                INVESTIGATIONS PERFORMANCE STATISTICS



                                            Fiscal Year

                            1996     1997         1998     1999     2000

Investigative Actions        39       31           41       46        51
Opened


Investigative Actions                              29       29        47
                             29       46
Resolved and Closed


Average Monthly Caseload     23       19           17       25        30



Investigative Matters
Resolved Without Opening     48       69           33       48        37
a Separate Investigative
Action


Referrals for Prosecution     7        4           7        12        14


Administrative or             4        3           6        10        4
Management Action Taken




                             30             FY00 Semiannual Report No. 2
                     FY00 PERFORMANCE INFORMATION


                            Office of the Inspector General
                                       Obligations
                             Fiscal Year 2000(1) and 1999



                                                                    Fiscal Year
                                                           2000                     1999

Audits
     CNS Financial Management                      $    613,689             $     448,342


     Grants                                            1,568,185                  632,536

     Procurement                                        341,011                   693,887

     Electronic Data Processing                         116,081                      __

     Other                                               50,933                     4,662

     Audit Administration                               194,677                   277,446

Investigations                                          387,703                   350,575

Administration                                          615,934                   584,378


                   Totals                           $ 3,888,213              $ 2,991,826


(1) In July 2000, P.L. 106-246 provided a supplemental appropriation to CNS OIG of
    $1,000,000, to be made available through September 30, 2001. CNS OIG will
    obligate these funds in FY 2001.




                                         31                   FY00 Semiannual Report No. 2
